No. 19-521
IN THE

Supreme Court of the United States
___________

CHARGEPOINT, INC.,
v.
SEMACONNECT, INC.,
___________

Petitioner,

Respondent.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Federal Circuit
___________

REPLY BRIEF
___________

CARTER G. PHILLIPS*
RYAN C. MORRIS
LUCAS W.E. CROSLOW
SIDLEY AUSTIN LLP
1501 K Street, N.W.
Washington, D.C. 20005
(202) 736-8000
cphillips@sidley.com
Counsel for Petitioner
January 8, 2020

* Counsel of Record

TABLE OF CONTENTS

Page

TABLE OF AUTHORITIES .................................

ii

REPLY BRIEF ......................................................

1

I. THE CONFLICT WITH DIEHR WARRANTS CERTIORARI ..................................

3

II. THIS CASE IS A PROPER VEHICLE TO
RECONSIDER THE NON-STATUTORY
EXCEPTION TO SECTION 101 ..................

9

CONCLUSION .....................................................

11

(i)

ii
CASES

TABLE OF AUTHORITIES

Page

Alice Corp. Pty. Ltd. v. CLS Bank Int’l, 134
S. Ct. 2347 (2014) ..................................... 2, 3, 8
Diamond v. Diehr, 450 U.S. 175 (1981)... 2, 4, 6, 7
Gottschalk v. Benson, 409 U.S. 63 (1972) .....
8
O’Reilly v. Morse, 56 U.S. (15 How.) 62
(1853) .......................................................... 7, 8
Parker v. Flook, 437 U.S. 584 (1978) ............
7
STATUTE
35 U.S.C. § 101 .......................................... 2, 9, 10

REPLY BRIEF
SemaConnect’s Brief in Opposition (“Opp.”) tries to
address everything in the room except the elephant—
namely, the fact that the test for patentability under
Section 101 is a shambles and needs correction. Currently, there is tremendous uncertainty about what is
patent eligible in America. See Pet. 2 n.2. Indeed, the
United States recently filed at least three briefs with
this Court asserting that “[t]he confusion created by
this Court’s recent Section 101 precedents warrants
review.”1 The time has come to dispel the Section 101
confusion, and this is the right case to do so.
The current jurisprudential confusion under Section
101 is nowhere clearer than in this case. The Federal
Circuit used the present confusion to conflate an improved machine that is capable of implementing an abstract idea with the abstract idea itself. In the process,
the Federal Circuit contravened this Court’s longstanding precedent.
SemaConnect’s primary argument against certiorari
is an effort to re-characterize ChargePoint’s patent
claims to suggest that they consist of nothing more
than the abstract idea of network control applied to generic electric-vehicle charging stations. As an initial
matter, this notion is entirely counterfactual—prior to
ChargePoint’s invention, no electric-vehicle charging
station (much less a generic one) was network capable.

1 Br. for the United States as Amicus Curiae 8, Hikma Pharm.
USA Inc. v. Vanda Pharm. Inc., No. 18-817 (U.S. Dec. 6, 2019)
(Hikma Br.); accord Br. for the United States as Amicus Curiae
10, HP Inc. v. Berkheimer, No. 18-415 (U.S. Dec. 6, 2019) (Berkheimer Br.); Br. for the United States in Opposition 13–14, Trading Techs. Int’l, Inc. v. IBG LLC, No. 19-353 (U.S. Dec. 18, 2019)
(Trading Techs. Br.).

2
ChargePoint changed that, inventing a charging station that included physical components necessary to
implement networking. That differs markedly from
the use of generic computers in Alice Corp. Pty. Ltd. v.
CLS Bank International, 134 S. Ct. 2347 (2014).
More fundamentally, however, SemaConnect’s argument merely puts different trappings on the reading
that the Federal Circuit gave the claims and that contravenes Diamond v. Diehr, 450 U.S. 175 (1981). In
Diehr, the Court held that patent claims cannot be dissected into “new” and “old” and then be held abstract
based solely on the new or inventive elements. “The
fact that one or more” elements of a claim “may not, in
isolation, be novel or independently eligible for patent
protection is irrelevant to … whether the claims as a
whole recite subject matter eligible for patent protection.” Id. at 193 n.15. If the claims are read as this
Court has foundationally instructed, then it is clear
that the Federal Circuit’s decision in this case further
conflicts with Diehr and the long-standing principle it
embodies, viz., incorporating an abstract idea into a
machine does not render the resulting invention patent ineligible. Otherwise, the plain language of Section 101 is meaningless.
Contrary to SemaConnect’s assertions, this issue
cannot be reserved for Congress, and this case is the
proper vehicle to address the Section 101 confusion. As
the United States has explained, the confusion under
Section 101 was created by the judiciary, not Congress.
The Court should grant certiorari to reconcile any exception to Section 101 with the textual command of the
statute. ChargePoint unquestionably invented a “new
and useful … machine,” or at least a “new and useful
improvement” to a machine—electric-vehicle charging
stations with network control capabilities. 35 U.S.C.
§ 101. Moreover, this case does not present a fact-

3
bound dispute but a question about the scope of Section 101 and the correct test for patentability of machines.
The time has come for the Court to clarify Section
101. This case presents an attractive opportunity to
address an important element of patent eligibility. The
petition should be granted.
I. THE CONFLICT WITH DIEHR WARRANTS
CERTIORARI.
The Court in Alice intended the atextual exception
to Section 101 to be limited and used cautiously, lest
the exception “swallow all of patent law.” 134 S. Ct. at
2354; Pet. 25. The confusion since Alice has made that
warning a reality. Indeed, it led the Federal Circuit
here to hold invalid a patent claiming an improved
electric-vehicle charging station because the physical
improvements to the machine allow it to implement an
abstract idea.
The Federal Circuit’s decision simply cannot be
squared with this Court’s decision in Diehr. Pet. 17–
22. The conflict is twofold: (1) the decision conflicts
with Diehr’s holding that merely incorporating an abstract idea into an invention does not render it patent
ineligible, Pet. 18–20; and (2) it conflicts with Diehr’s
holding that claims cannot be dissected into old and
new elements and then held patent ineligible because
the “new” or inventive elements are deemed abstract,
Pet. 20–21. This Court needs to clarify whether Diehr
remains viable and how it fits into the Court’s more
recent efforts under Section 101.
a. SemaConnect responds by essentially re-characterizing ChargePoint’s patents. It asserts repeatedly
that each of the patent claims at issue “is an abstract
idea (remote control over a network)” that happens to
be in the context of electric-vehicle charging stations.

4
Opp. 1, 8, 12, 16. But this characterization simply doubles down on the second conflict created by the Federal
Circuit’s decision in this case. According to SemaConnect and the Federal Circuit, the inventive element of
ChargePoint’s claims is “the abstract idea of communication over a network.” Id. at 16 (quoting Pet. App.
11a); see id. at 8 (“[T]he only allegedly inventive aspect
of these claims is the addition of generic network control ….”). This, however, merely isolates one of the
claim limitations—i.e., the networking componentry—
and ignores the remainder. That is precisely what the
Court in Diehr said is an improper methodology under
Section 101. See Pet. 20–21.
Indeed, this aspect was critical to the Diehr majority’s decision. The dissent would have read the claim
at issue there as merely “‘a new method of programming a digital computer in order to calculate … the
correct curing time in a familiar process.’” 450 U.S. at
193 n.15. But the majority rejected this approach,
holding instead that the claim could not be “limited to
the isolated step of ‘programming a digital computer’”—merely one of several limitations in the claim.
Id. The “fact that one or more of the steps … may not,
in isolation, be novel or independently eligible for patent protection is irrelevant to the question of whether
the claims as a whole recite subject matter eligible for
patent protection under § 101.” Id. The Federal Circuit
(and now SemaConnect) disregarded this holding in
Diehr by isolating one limitation of ChargePoint’s
claims—the component that facilitates network communication—and then using it to declare the entire
machine claim to be an ineligible abstract idea. This is
hopelessly at odds with this holding of Diehr.
SemaConnect says that the Federal Circuit did not
in fact disregard this aspect of Diehr because Charge-

5
Point admitted below that the “essence” of its invention is networking—that is, “to enable electric-vehicle
charging stations to ‘be controlled remotely.’” Opp. 21–
22; see id. at 9, 11, 12–13. But the statements from
ChargePoint in no way conceded that the patent
claims were limited to communications over a network
or any other supposed abstract idea.2 Rather, they
highlighted a capability of the claimed machines that
made them inventive. The essence of Doc Brown’s invention in Back to the Future may have been time
travel, but that characterization would not make his
improved DeLorean any less patentable. See Pet. 22.
Similarly, the essence of the claim in Diehr may have
been a method for programming a computer to calculate the proper curing time, but that did not mean the
Court could ignore the remainder of the claim. So too
here. ChargePoint’s patents claim entire machines.
This includes a control device for enabling and disabling an electric charge, a transceiver for communicating with a remote server, and a controller that
turns the power supply on and off in response to communications from the remote server. Pet. App. 9a.
Taken together they make the invention fit comfortably within Section 101.
SemaConnect next asserts that the Petition errs in
its description of the Federal Circuit’s decision. Opp.
22–23. But SemaConnect’s own description—no less
than the Petition—illustrates the Federal Circuit’s
conflict with Diehr. “The Federal Circuit first identified the abstract idea at issue and then looked to the
specification to ascertain the ‘focus’ of ChargePoint’s
patents,” concluding that they are directed to an abstract idea because network capabilities solved the
2 See Corrected Brief for ChargePoint, Inc. at 42, ChargePoint,
Inc. v. SemaConnect, Inc., 920 F.3d 759 (Fed. Cir. 2019) (No.
2018-1739), 2018 WL 2023220; Fed. Cir. J.A. at Appx809.

6
“‘problem perceived by the patentee.’” Id. In other
words, the Federal Circuit asked whether the inventive aspect of the claim—the “new” problem-solving element—is the abstract idea and ignored the remainder of the claim elements. That is precisely what
Diehr held to be improper. “It is inappropriate to dissect the claims into old and new elements and then to
ignore the presence of the old elements in the analysis.” 450 U.S. at 188.
b. SemaConnect’s opposition not only confirms the
Federal Circuit’s conflict with the second aspect of
Diehr, but also it does nothing to undermine the conflict that the Petition showed with respect to the first
aspect. As ChargePoint demonstrated, the Federal
Circuit’s decision conflicts with Diehr’s holding that involving or incorporating an abstract idea into a machine does not render that invention patent ineligible.
Pet. 18–20.
SemaConnect contends that “ChargePoint mischaracterizes the Federal Circuit’s decision” because the
court below “acknowledged that ‘involv[ing]’ an abstract idea is ‘not enough.’” Opp. 16 (alteration in original). But to conclude that ChargePoint’s claims do
more than “involve” an abstract idea, the Federal Circuit contravened Diehr’s directive not to dissect old
and new elements of the claims. Pet. 20–21; see supra
3–6. Without that erroneous step, the claims merely
“involv[e]” an abstract idea, and the Federal Circuit’s
holding that such claims are patent ineligible simply
conflicts with Diehr.
SemaConnect then asserts that the Federal Circuit’s
decision here is consistent with Diehr. Opp. 16–17. It
says that the claim in Diehr “did not merely present
the abstract mathematical formula,” but rather, when
read as a whole, was “an innovative molding process
from start-to-finish.” Id. at 17. ChargePoint’s claims,

7
however, like those in Diehr consist of a start-to-finish
system—electric-vehicle charging stations with networking capabilities. SemaConnect’s contrary views
rest entirely on, yet again, reading the claims contrary
to Diehr’s instruction. SemaConnect contends that
“ChargePoint simply took a the [sic] abstract idea of
network control and added it to a generic electric vehicle charging station.” Id. But that reading of the claims
is no different than the one the dissent gave in Diehr,
which would have focused on a new programming
method as applied to “a familiar process.” 450 U.S. at
193 n.15 (emphasis added). The majority rejected that
view, and the Federal Circuit’s refusal to do the same
here conflicts with Diehr.
SemaConnect next argues that this Court’s decision
in Parker v. Flook, 437 U.S. 584 (1978), “is especially
on point” and supports the Federal Circuit’s decision.
Opp. 17. Once again, SemaConnect is wrong. As the
Court in Diehr explained, the claims in Flook “were
drawn to a method for computing an ‘alarm limit,’”
which was “simply a number.” 450 U.S. at 186. All the
patent disclosed was “a formula for computing an updated alarm limit,” without any other variable, or discussion of the processes or means of setting off an
alarm. Id. at 186–87. Here, in contrast, ChargePoint’s
claims, when read as a whole, disclose an entire electric-vehicle charging system with particular capabilities. They do not claim a mathematical formula devoid
of context, nor purport to monopolize “network communication” writ large.
For this same reason, ChargePoint’s claims are entirely unlike those in Morse. See Opp. 20. There, this
Court held invalid a claim that purported to monopolize the results of electro-magnetism “however developed.” O’Reilly v. Morse, 56 U.S. (15 How.) 62, 112

8
(1854). Provided electro-magnetism was used, “it matter[ed] not by what process or machinery the result is
accomplished.” Id. at 113. But none of ChargePoint’s
claims purports to monopolize network communication—or some other abstract idea—“however developed.” Rather, they include—“involve,” as the Federal
Circuit put it—networking capabilities as one element
of a larger machine for charging electric vehicles.
SemaConnect also asserts that “ChargePoint’s
claims parallel the claims held ineligible in Alice” because they consist of the “abstract idea of network control” and the “instruction to ‘apply it’ to a particular
technological environment.” Opp. 14. That is nonsense. First, SemaConnect’s argument rests on its erroneous characterization of ChargePoint’s claims. See
supra 3–6. The claims do not merely say to apply the
idea of network communication. They recite specific
electric-vehicle charging stations with certain built-in
capabilities. Second, Alice’s prohibition against a mere
instruction to apply an abstract idea flowed from the
unique nature of “generic computers” and this Court’s
cases in Gottschalk v. Benson, 409 U.S. 63 (1972), and
Flook, which held that implementing an abstract idea
on a generic computer does not make that idea patentable. Alice, 134 S. Ct. at 2357–58. This Court has not
suggested that the concerns motivating its precedent
on generic computers applies to any other “technological environment,” nor is there reason to believe that
they may. And if the Court were to take that position,
it would essentially write the term “machine” in Section 101 out of existence.
The Federal Circuit’s conflict with Diehr cannot
stand.

9
II. THIS CASE IS A PROPER VEHICLE TO RECONSIDER THE NON-STATUTORY EXCEPTION TO SECTION 101.
Section 101 jurisprudence is a mess. The case law
under Alice lacks any consistency or predictability.
Pet. 25–30; see id. at 2 & nn.1–2. The official position
of the United States is that the “confusion created by
this Court’s recent Section 101 precedents warrants
review.” Hikma Br. 8; accord Berkheimer Br. 10; Trading Techs. Br. 13–14. And the Federal Circuit’s decision in this case serves only to worsen this confusion.
Pet. 26–30. The time has come to reconcile the Court’s
exception to Section 101 with the textual command of
that statute. Pet. 23–24.
SemaConnect does not even attempt to suggest that
there is consistency or predictability under Section
101. Rather, it argues that the issue should be left to
Congress or that this case is not the proper vehicle for
considering it. Neither argument is availing.
a. SemaConnect asserts that “[a]ny [r]e-[e]valuation
of Section 101 [s]hould [b]e [r]eserved [f]or Congress”
rather than resolved by this Court. Opp. 29–31. But
this issue is one uniquely for the judiciary. Congress
has already weighed in on the issue by broadly declaring that “[w]hoever invents … any new and useful …
machine … or any new and useful improvement
thereof” may obtain a patent. 35 U.S.C. § 101. And as
the United States has explained, the confusion and uncertainty currently running rampant under Section
101 stems from the implicit exception created by the
judiciary, not the text of Section 101 itself. Hikma Br.
4–5; Berkheimer Br. 4–6; Trading Techs. Br. 4–6. In
sum, the problem is of this Court’s making, and it
should provide the solution by faithfully applying the
text.

10
b. SemaConnect finally contends that this case is
not the proper vehicle for the Court to address Section
101. Opp. 25–29. Its arguments are meritless.
SemaConnect argues at the outset that this case presents “a fact-bound dispute.” Opp. 24–25. But saying
that does not make it so. The case law under Section
101 is currently inconsistent and unpredictable. And
as the United States has explained, that inconsistency
stems from the Court’s departure from the text of Section 101. This case presents an ideal case for the Court
to recommit patent eligibility to the text of Section 101.
That is because ChargePoint’s inventions fall well
within the text of the statute—they are “new and useful … machine[s]” or at least “new and useful improvement[s]” to machines. 35 U.S.C. § 101; Pet. 21, 23–24.
SemaConnect argues that recitation of a “machine”
does not automatically confer patent eligibility, Opp.
18–19, but the scope of Section 101 as it applies to a
machine and its improvements is anything but fact
bound.
SemaConnect makes the erroneous assertion that
preemption concerns make this an inappropriate vehicle. Opp. 25–29. First, many of its arguments rest on
its characterization of ChargePoint’s patents, which as
explained above conflict with Diehr. See supra 3–6.
Adhering to Diehr would dispose of SemaConnect’s
concerns. Second, SemaConnect’s arguments largely
take issue with the patent monopoly itself. And it thus
puts the cart before the horse. The scope of infringement has not been adjudicated because the district
court resolved the case at the very outset on Section
101 grounds. The sole issue is the appropriate test and
scope of patentability under Section 101. ChargePoint’s claims fall well within the text and history of
what the Patent Act was designed to protect, making

11
this an appropriate case for the Court to take up this
issue.
Indeed, the Court may wish to do so in conjunction
with the petition presented in Athena Diagnostics, Inc.
v. Mayo Collaborative Services, LLC, No. 19-430 (U.S.
filed Oct. 1, 2019). SemaConnect says that this case is
unlike Athena, Opp. 30, but considering this case
alongside Athena would provide the Court with an opportunity to consider Section 101 in distinct technological contexts, which would provide critical guidance to
the Federal Circuit.3
CONCLUSION
For these reasons and those in the petition, the petition should be granted.
Respectfully submitted,
CARTER G. PHILLIPS*
RYAN C. MORRIS
LUCAS W.E. CROSLOW
SIDLEY AUSTIN LLP
1501 K Street, N.W.
Washington, D.C. 20005
(202) 736-8000
cphillips@sidley.com
Counsel for Petitioner
January 8, 2020

* Counsel of Record

3 In any event, if the Court grants certiorari in any of the Section 101 petitions currently pending before the Court, then it
should hold this petition pending the final disposition of any such
petition and dispose of this case as appropriate in light of the
Court’s ultimate decision on the merits.

